               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          Processing of Meter Activity

                       Audit Report




                                          September 6, 2012

Report Number FT-AR-12-012
                                                                    September 6, 2012

                                                        Processing of Meter Activity

                                                        Report Number FT-AR-12-012




BACKGROUND:
The U.S. Postal Service uses postage        procedures did not exist for variance
meters to print evidence that postage       monitoring and correction. We reviewed
required for mailing has been paid.         variances from October 2003 through
These include customer, contract postal     March 2012 and found 867 meters with
unit (CPU), and Post Office meters.         usage exceeding reported revenue
Unlike customer meters that require         totaling about $5.6 million. We referred
sufficient funds to be deposited before     three unexplained variances totaling
postage is added, CPU and Post Office       $368,701 to the U.S. Postal Service
meters are not prefunded. Also,             Office of Inspector General’s Office of
payment is made and revenue is              Investigations.
recorded only when postage is used.
Therefore, the integrity of reported        Further, the meter tracking system
revenue depends on strong controls          reported previously resolved variances,
over processing CPU and Post Office         so management would need to spend
meter activity.                             time manually identifying previously
                                            corrected variances. We also did not
The Postal Service uses a meter             find any issues with field processes that
tracking system to compare reported         would cause significant meter variances.
revenue to meter usage records. The
Eagan, MN, Accounting Reconciliation        During the audit, management
Branch is responsible for monitoring and    developed, documented, and
correcting any variances (or differences)   implemented a process to monitor and
to ensure revenue is accurately             correct CPU and Post Office meter
reported. CPU and Post Office meter         variances. Management also
revenue for fiscal year 2011 was about      implemented a system change to
$179 million.                               identify and remove corrected variances
                                            from the variance report.
Our objective was to evaluate Postal
Service controls over CPU and Post          WHAT THE OIG RECOMMENDED:
Office meters.                              Management took corrective actions
                                            during our audit to address the issues
WHAT THE OIG FOUND:                         identified in this report; therefore, we are
Controls over CPU and Post Office           not making any recommendations at this
meters needed improvement.                  time but will monitor corrective actions.
Specifically, since June 2011, staff did
not monitor CPU and Post Office meter       Link to review the entire report
variances because documented
September 6, 2012

MEMORANDUM FOR:             TIMOTHY F. O’REILLY
                            VICE PRESIDENT, CONTROLLER

                            PRITHA MEHRA
                            VICE PRESIDENT, MAIL ENTRY AND
                             PAYMENT TECHNOLOGY

                            KELLY SIGMON
                            VICE PRESIDENT, CHANNEL ACCESS




FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                             for Financial Accountability

SUBJECT:                    Audit Report – Processing of Meter Activity
                            (Report Number FT-AR-12-012)

This report presents the results of our audit of the Processing of Meter Activity (Project
Number 12BG017FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Nagisa Manabe
    Stephen Masse
    Jean D. Parris
    Corporate Audit and Response Management
Processing of Meter Activity                                                                                       FT-AR-12-012



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Contract Postal Unit and Post Office Meter Revenue Variances ..................................... 2

System Limitations .......................................................................................................... 3

Field Procedures ............................................................................................................. 3

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objectives, Scope, and Methodology .......................................................................... 6

   Prior Audit Coverage ................................................................................................... 7
Processing of Meter Activity                                                                               FT-AR-12-012




Introduction

This report presents the results of our audit of the processing of meter activity (Project
Number 12BG017FT000). Our objectives were to evaluate U.S. Postal Service controls
over meters at contract postal units (CPU)1 and post offices and missing meters.2 This
self-initiated audit addresses financial risk. See Appendix A for additional information
about this audit.

The Postal Service uses postage meters to print evidence that postage required for
mailing has been paid. The meters include customer, CPU, and Post Office meters and
are available only through Postal Service authorized providers. Authorized postage
meter providers include Data-Pac Mailing Systems, FP Mailing Solutions, Hasler,
Neopost, and Pitney-Bowes. The Postal Service holds providers responsible for the
control, secure operation, distribution, replacement, and secure disposal or destruction
of postage meters.

Payment varies for postage loaded onto meters. Customer meters require sufficient
funds to be deposited with the Postal Service before postage is added, and the Postal
Service records revenue at that same time. Unlike customer meters, CPU and Post
Office meters are not prefunded, and the Postal Service records revenue only when
postage is used.

CPU and Post Office personnel record daily meter usage on Postal Service (PS) Form
3602-PO, Postage Collected Through Post Office Meter. That information serves as
supporting documentation for daily revenue reported by the CPUs and post offices on
PS Form 1412, Daily Financial Report.3 Fiscal year (FY) 2011 revenue for CPU and
Post Office meters was about $179 million.

When postage is added to a CPU or Post Office meter, the National Meter and
Accounting Tracking System (NMATS)4 calculates meter postage used since the prior
setting and compares the usage to reported revenue from the PS Form 1412 for the
same time period. Variances exist when the calculated usage differs from reported
revenue. The Accounting Reconciliation Branch (ARB) at Accounting Services in
Eagan, MN, is responsible for monitoring these variances for corrective action. Field
personnel do not have any formal responsibilities for monitoring meter variances.5
1
  A retail unit operated for the Postal Service by an individual or company in the private sector that provides nearly all
retail services to postal customers.
2
  Missing meters are those reported as lost or stolen.
3
  PS Form 3602-PO must be submitted, verified, and retained as supporting documentation for the meter revenue
reported by the Post Office. From registers on the meter (the ascending register records usage and the descending
records postage remaining), CPUs and post offices manually record the beginning and ending postage meter register
readings each day on PS Form 3602-PO. The change between the beginning and ending ascending register
readings represents the meter usage for the day.
4
  NMATS tracks the installation and settings of postage on meters based on meter providers’ records to account for
the revenue generated and meter location.
5
  Handbook F-101, Field Accounting Procedures, dated February 2012, governs procedures for field units. Field units
include post offices and CPUs.
                                                             1
Processing of Meter Activity                                                                           FT-AR-12-012




Conclusion

Controls over CPU and Post Office meters needed improvement. Specifically, ARB
personnel did not monitor variances between NMATS meter usage records and CPU or
Post Office reported meter revenue for corrective action, increasing the risk that
revenue is not properly reported. Prior to June 2011, ARB personnel performed this
task, but management stated they discontinued it when personnel who monitored and
corrected variances left the agency.

Further, NMATS reported previously resolved variances, so management could not
easily distinguish between previously resolved variances and those not yet reviewed.
This occurred because NMATS did not have a feature to allow ARB personnel to flag
corrected variances for removal from current variance reporting. As a result, personnel
would need to spend time manually identifying previously corrected variances.

Additionally, during the audit, management requested we review field processes related
to CPU and Post Office meters to determine a potential cause for meter variances.
Specifically, management inquired whether issues existed with field personnel reporting
postage collected through Post Office meters. We did not find any issues with field
processes that would cause reportable meter variances. Accordingly, we are not making
any recommendations at this time.

Contract Postal Unit and Post Office Meter Revenue Variances

ARB personnel did not monitor variances between NMATS meter usage records and
CPU or Post Office reported meter revenue for corrective action. Prior to June 2011,
ARB personnel performed this task, but management stated they discontinued it when
personnel who monitored and corrected variances left the agency. As a result, revenue
may not be properly reported by the CPUs or post offices.

We reviewed variances from October 20036 through March 2012 and found 867 meters
with negative variances (meter usage exceeded reported revenue) totaling about
$5.6 million. We judgmentally selected 43 meters, representing 80 percent of the total
dollar amount of negative variances, and found four meters with unexplained negative
variances, totaling about $393,525. Three of the meters’ variances totaled $368,701,
which management forwarded to area accounting managers for resolution.7 We referred
these variances to the U.S. Postal Service Office of Inspector General’s (OIG) Office of
Investigations. Management forwarded the other meter’s variance to the U.S. Postal
Inspection Service to pursue collection but was unable to provide collection results. The
remaining 39 meters had variances resulting from erroneous NMATS records that did


6
  Records are available for variances reported after September 2003.
7
  Variances reported by NMATS are only an indicator of a potential problem. The ARB does not have sufficient
information to make accounting entries; therefore, they forward variances they are unable to resolve to area
accounting managers and district finance managers for follow up. As a result, we could not determine or report actual
revenue loss.


                                                          2
Processing of Meter Activity                                                                       FT-AR-12-012



not impact reported revenue or could not be researched due to the age of the
transaction.8

Postal Service policy states that Accounting Services must make every effort to
determine the extent of any unreported field unit financial activity to ensure that the
monthly financial reports are fairly represented.9 Additionally, it states that Accounting
Services’ procedures must be documented with detailed desk procedures and process
descriptions.10 However, documented procedures did not exist to monitor variances for
corrective action.

As a result of our audit, management developed and implemented a review process
with documented procedures and controls to monitor and correct variances.
Additionally, they assigned three staff members to the review process as part of their
regular duties. Management also forwarded potentially under reported revenue to area
accounting managers for resolution. They anticipate being current in the review process
by December 31, 2012. Since management implemented a review process, we are not
making any recommendations. We will continue to monitor the review process as part of
our ongoing financial statement audit work.

System Limitations

NMATS reported previously corrected variances so management would not be able to
easily distinguish between previously resolved variances and those not yet reviewed.11
This occurred because NMATS did not have a feature allowing ARB personnel to flag
corrected variances for removal from current variance reporting. As a result, personnel
would need to spend time manually identifying previously corrected variances.

During our audit, management implemented a system change to identify and remove
corrected variances from the variance report. Therefore, we are not making any
recommendations at this time. We will continue to monitor the area as part of our
ongoing financial statement audit work.

Field Procedures

In addition to our planned audit objective, management requested that we review field
procedures related to CPU and Post Office meters to determine a potential cause for
meter variances. Specifically, management inquired whether issues existed with
personnel reporting meter revenue on PS Forms 3602-PO. We judgmentally selected
three CPUs and three post offices with meters from each of the seven Postal Service
areas.12 We requested supporting documentation for reported meter revenue for 1 week


8
   Erroneous NMATS records (such as incorrect finance numbers) create variances but do not impact overall
revenue.
9
   Handbook F-1, Accounting and Reporting Policy, Section 2-4.1.8.2, dated March 2011.
10
   Handbook F-1, Section 1-1.2.
11
   Prior to June 2011, the ARB was monitoring variances.
12
   We chose sites with $10,000 or more in meter revenue to ensure regular meter use.


                                                        3
Processing of Meter Activity                                                 FT-AR-12-012



in FY 2011 from each site. Of the 42 sites contacted, 36 responded and we received
283 PS Forms 3602-PO. Our review disclosed:

 Five instances where personnel did not use PS Forms 3602-PO in sequential order.

 Eighty-six instances where PS Forms 3602-PO did not include the required
  supervisor’s initials for verification of meter register readings.

 Seven instances where personnel did not record ascending register readings.

   Four instances where ending ascending or descending register readings did not
    match the next day’s beginning reading.

 Seven instances where revenue reported on PS Forms 1412 differed from meter
  usage recorded on PS Form 3602-PO.

None of the issues identified resulted in a difference that was material in relation to
overall revenue or that exceeded the NMATS variance reporting threshold. NMATS
does not report variances unless they exceed 2 days of average usage for that meter.
Since none of the issues we found would cause reportable meter variances, we are not
making any recommendations at this time.

Because we made no recommendations, management chose not to respond formally to
this report.




                                           4
Processing of Meter Activity                                                                            FT-AR-12-012




                                 Appendix A: Additional Information

Background

The Postal Service regulates postage meters and their use to protect postal revenue
through the NMATS. Postage meters are available only through Postal Service
authorized providers and are required to have two registers. The ascending register
records postage used and it increases as postage is printed. The descending register
records the postage value remaining on the meter and it decreases as postage is used.
Meter providers send electronic files to the Postal Service on meter installations,
withdrawals, and postage added to or refunded from a meter.

Meters are reset13 remotely at the location of the meter. Payment for postage loaded
onto meters varies by meter type, including customer meters, CPU, and Post Office
meters. Only customer meters are required to have funds on deposit with the Postal
Service before postage can be added to the meter. Postage is added to CPU and Post
Office meters without being prefunded. Payment for CPU and Post Office meter
postage is made when customers use it, and revenue is then reported by the CPU or
Post Office on PS Form 1412.14 The ARB is responsible for monitoring variances
between reported revenue and postage meter usage records, available from the
NMATS variance report.

NMATS generates a variance report that identifies differences between reported CPU
and Post Office meter revenue and postage meter usage records.15 Meter providers
send NMATS the register readings when postage is added to a CPU or Post Office
meter. NMATS calculates meter usage by determining the difference between the
current ascending register received and the ascending register from the previous
setting. Additionally, reported revenue from the CPU or Post Office’s PS Form 1412 is
summarized for the same setting period. NMATS reports a meter variance only if the
difference exceeds 2 days of average daily meter usage. The ARB monitors the
variance report and contacts CPUs and post offices if necessary to resolve variances.
When the ARB cannot resolve a variance, they forward it to the applicable area
accounting manager and district finance manager for correction.

Meter providers are required to have inventory control processes for postage meters.16
Additionally, the Postal Service requires providers to disable the ability to reset a meter
upon initial report or discovery of a lost or stolen meter. The meter provider cannot send
a setting on a meter in lost or stolen status but may subsequently reactivate the meter in
13
   Reset is a term used when referring to adding postage to a meter.
14
   PS Form 3602-PO must be submitted, verified, and retained as supporting documentation for the meter revenue
reported by the Post Office. CPUs and post offices manually record the beginning and ending postage meter register
readings each day on the PS Form 3602-PO. The change between the beginning and ending ascending registers
represents meter usage for the day.
15
   Meter providers send electronic records to NMATS when postage is added to a CPU or Post Office meter. NMATS
uses the records to calculate postage used since the prior setting by subtracting the ascending reading at the time of
the prior setting from the current ascending reading.
16
   Title 39 U.S.C. §501.14.


                                                          5
Processing of Meter Activity                                                                   FT-AR-12-012



their system and send setting information to NMATS. The ARB verifies the meter status
and customer information in NMATS.

Objectives, Scope, and Methodology

Our objectives were to evaluate Postal Service controls over CPU and Post Office
meters. To accomplish our objectives, we:

    Reviewed Postal Service policies and procedures.

    Interviewed management and field personnel.

    Judgmentally selected and reviewed a sample of meters with negative variances to
     determine if revenue was under reported.

    Judgmentally selected three CPUs and three post offices with meters from each of
     the seven Postal Service areas to determine if field processes contributed to
     variances.

Our initial objective also included evaluating controls over missing meters. Although we
identified 341,680 missing meters,17 our preliminary review determined the overall risk
of lost revenue is low. Upon initial report of a missing meter, providers disable the ability
to add postage, so there is no future risk of lost revenue. For remaining balances on
missing customer meters, there is no risk to the Postal Service since the postage is
prepaid. For CPU and Post Office meters, the risk is limited to any remaining balance.
CPUs are bonded and the maximum allowed amount of postage on CPU meters may
not exceed the CPU bond limit. Also, Post Office meters may not exceed the estimated
30-day usage amount. Therefore we did not keep this area as part of our objective.

We conducted this performance audit from January through September 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on September 4, 2012.

We relied on computer-generated data from NMATS. We assessed the reliability of
NMATS data by tracing selected financial information to the supporting source records.
We determined that the data were sufficiently reliable for the purposes of this report.




17
 As of December 31, 2011, reported by NMATS. Management stated the number of missing meters includes all
meters reported lost or stolen and not recovered since the mid 1990s.


                                                     6
Processing of Meter Activity                                                 FT-AR-12-012



Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objectives of this
audit. However, as part of our annual financial statement audit work, we review controls
relating to meter liability and revenue.




                                           7
